CERTIFICATE OF SERVICE
NO. TBD
Rickey Newsome
Petitioner(s)
v.
RSL Funding, LLC; RSL Special-IV, Limited Partnership
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the RICKEY
NEWSOME PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
E. John Gorman
The Feldman Law Firm, LLP
Two Post Oak Central
1980 Post Oak Blvd., Suite 1900
Houston, TX 77056-3877
(713) 850-0700
jgorman@FeldLaw.com
Counsel for Respondents

Lucas DeDeus

June 27, 2019
SCP Tracking: Nesbitt-15851 Dallas Parkway-Cover White

